No.

IN THE
SUPREME COURT OF THE UNITED STATES

MARK ANDREW MORRIS

— PETITIONER

(Your Name)
VS.
UNITED STATES OF AMERICA — RESPONDENT(S)
PROOF OF SERVICE

I MARK ANDREW MORRIS

_________, do swear or declare that on this date,
as required by Supreme Court Rule 29 I have
, 20
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Solicitor General of the United States, Room 5614, Department of Justice, 950 Pennsylvania
4

Ave., N.W., Washington, D.C. 20530-0001

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

A/D\S f,rr\

7>

20£0

(Signature)

